                                                                           AUDIT




               OFFICE OF
               INSPECTOR GENERAL
               U.S. DEPARTMENT OF THE INTERIOR




U.S. FISH A N D W ILDLIFE SERVICE WILDLIFE AND
S PORT F ISH R ESTORATION PROGRAM GRANTS
Awarded to the State of New Jersey, Depar tment of Environmental Protection,
Division of Fish and Wildlife, From July I, 2009, Through June 30, 20 I I




Report No.: R-GR-FWS-0003-20 12                                          June 20 I 2
                                                                                        June 22, 2012

                                          AUDIT REPORT
Memorandum

To:            Director
               U.S. Fish and Wildlife Service

From:          Suzanna I. Park
               Director of External Audits

Subject:       Audit – U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration
               Program Grants Awarded to the State of New Jersey, Department of
               Environmental Protection, Division of Fish and Wildlife, From July 1, 2009,
               Through June 30, 2011
               Report No. R-GR-FWS-0003-2012

        This report presents the results of our audit of costs claimed by the State of New Jersey
(State), Department of Environmental Protection, Division of Fish and Wildlife (Division), under
grants awarded by the U.S. Fish and Wildlife Service (FWS). FWS provided the grants to the
State under the Wildlife and Sport Fish Restoration Program. The audit included claims totaling
$16.3 million on 29 grants that were open during State fiscal years that ended June 30, 2010, and
June 30, 2011 (see Appendix 1). The audit also covered the Division’s compliance with
applicable laws, regulations, and FWS guidelines, including those related to the collection and
use of hunting and fishing license revenues and the reporting of program income.

        We found that the Division complied, in general, with applicable grant accounting and
regulatory requirements. We questioned costs totaling $6,028 and identified a potential diversion
of license revenue totaling $46,832 for unallowable personal commuting costs resulting from the
misuse of State vehicles. We also identified deficiencies related to (1) potential violation of
assent legislation, (2) inadequate equipment management, (3) inadequate accounting for program
income, (4) inadequate license certification documentation, and (5) unreconciled real property
records.

      We provided a draft report to FWS for a response. We summarized Division and FWS
Region 5 responses to the recommendations, as well as our comments on the responses after the
recommendations. We list the status of the recommendations in Appendix 3.

        Please respond in writing to the findings and recommendations included in this report by
September 20, 2012. Your response should include information on actions taken or planned,
targeted completion dates, and titles of officials responsible for implementation. Please address
your response to:




                          Office of Audits, Inspections, and Evaluations | Reston, VA
                              Director of External Audits
                              U.S. Department of the Interior
                              Office of Inspector General
                              12030 Sunrise Valley Drive, Suite 230
                              Reston, VA 20191

        If you have any questions regarding this report, please contact the audit team leader,
Jeffrey Wilson, or me at 703-487-5345.

cc: Regional Director, Region 5, U.S. Fish and Wildlife Service




                                                 2
Table of Contents
Introduction ............................................................................................................. 1
   Background .......................................................................................................... 1
   Objectives ............................................................................................................ 1
   Scope ................................................................................................................... 1
   Methodology........................................................................................................ 1
   Prior Audit Coverage ........................................................................................... 2
Results of Audit ...................................................................................................... 4
   Audit Summary.................................................................................................... 4
   Findings and Recommendations .......................................................................... 4
Appendix 1 ............................................................................................................ 15
Appendix 2 ............................................................................................................ 16
Appendix 3 ............................................................................................................ 17
Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport
Fish Restoration Act (Acts) 1 established the Wildlife and Sport Fish Restoration
Program (Program). Under the Program, the U.S. Fish and Wildlife Service
(FWS) provides grants to States to restore, conserve, manage, and enhance their
sport fish and wildlife resources. The Acts and Federal regulations contain
provisions and principles on eligible costs and allow FWS to reimburse States up
to 75 percent of the eligible costs incurred under the grants. The Acts also require
that hunting and fishing license revenues be used only for the administration of
the State’s fish and game agency. Finally, Federal regulations and FWS guidance
require States to account for any income they earn using grant funds.

Objectives
We conducted this audit to determine if the State of New Jersey (State),
Department of Environmental Protection (Department), Division of Fish and
Wildlife (Division)—

       •    claimed the costs incurred under the Program grants in accordance with
            the Acts and related regulations, FWS guidelines, and the grant
            agreements;
       •    used State hunting and fishing license revenues solely for fish and wildlife
            program activities; and
       •    reported and used Program income in accordance with Federal regulations.

Scope
Audit work included claims totaling approximately $16.3 million on the 29 grants
open during State fiscal years (SFYs) that ended June 30, 2010, and June 30, 2011
(see Appendix 1). We report only on those conditions that existed during this
audit period. We performed our audit at Division headquarters in Trenton, NJ, and
visited one regional office, four wildlife management areas, three field offices,
one fish lab, one fish hatchery, and two boat access areas (see Appendix 2). We
performed this audit to supplement—not replace—the audits required by the
Single Audit Act Amendments of 1996 and by Office of Management and Budget
Circular A-133.

Methodology
We conducted our performance audit in accordance with the “Government
Auditing Standards” issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted
1
    16 U.S.C. §§ 669 and 777, as amended, respectively.

                                                                                      1
auditing procedures as necessary under the circumstances. We believe that the
evidence obtained from our tests and procedures provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Our tests and procedures included—

   •   examining the evidence that supports selected expenditures charged to the
       grants by the Division;
   •   reviewing transactions related to purchases, direct costs, drawdowns of
       reimbursements, in-kind contributions, and program income;
   •   interviewing Division employees to ensure that personnel costs charged to
       the grants were supportable;
   •   conducting site visits to inspect equipment and other property;
   •   determining whether the Division used hunting and fishing license
       revenues solely for the administration of fish and wildlife program
       activities; and
   •   determining whether the State passed required legislation assenting to the
       provisions of the Acts.

We also identified the internal controls over transactions recorded in the labor and
license fee accounting systems and tested their operation and reliability. Based on
the results of initial assessments, we assigned a level of risk to these systems and
selected a judgmental sample of transactions for testing. We did not project the
results of the tests to the total population of recorded transactions or evaluate the
economy, efficiency, or effectiveness of the Division’s operations.

Prior Audit Coverage
On December 5, 2007, we issued “U.S. Fish and Wildlife Service Program Grants
Awarded to the State of New Jersey, Department of Environmental Protection,
Division of Fish and Wildlife” (R-GR-FWS-0010-2007). We followed up on all
eight recommendations in the report and found that the U.S. Department of the
Interior, Office of the Assistant Secretary for Policy, Management and Budget
(PMB) considers seven recommendations as resolved and implemented and one
recommendation as resolved but not yet implemented. As discussed in the
Findings and Recommendations section of this report, we are repeating the
unimplemented recommendation, which deals with unreconciled real property
records.

Our current audit scope included the areas covered in the prior audit. Where
conditions exist that still need improvement, we reported them in the Findings and
Recommendations section of this report and repeat the relevant recommendation
from our prior report. Documentation on the implementation of repeat
recommendation should be sent to PMB.




                                                                                    2
We reviewed single audit reports and comprehensive annual financial reports for
the State of New Jersey for SFYs 2010 and 2011. None of these reports contained
any findings that would directly affect the Program grants.




                                                                              3
Results of Audit
Audit Summary
We found that the Division complied, in general, with applicable grant agreement
provisions and requirements of the Acts, regulations, and FWS guidance. We
identified, however, several conditions that resulted in the findings listed below,
including questioned costs totaling $6,028.

Questioned Costs. We questioned costs of $6,028 charged to Program grants and
identified a potential diversion of $46,832 for the Division’s misuse of State
vehicles for personal commuting purposes.

Potential Violation of Assent Legislation. The State may have removed
$500,000 of its non-license and permit general funds from the “Hunters’ and
Anglers’ Fund” in violation of the State’s assent legislation.

Inadequate Accounting of Program Income. The accounting system was not
able to track program income reported at the transaction level, resulting in a risk
that revenues may not have been reported.

Inadequate License Certification Documentation. The Division was unable to
provide documentation for license years (LYs) 2008 and 2009 to ensure that all
duplicate license holders were eliminated and not included in the annual
certifications.

Unreconciled Real Property Records. The Division’s land records were not
adequate to ensure that lands acquired with grant funds were used solely for the
intended purposes for which they were acquired.

Inadequate Equipment Management. The Division’s equipment management
system did not identify all equipment purchased with program funds and license
revenue.

Findings and Recommendations
A. Questioned Cost — Misuse of State Vehicles — $6,028

The Division maintains an inventory of 210 State-owned vehicles that are either
individually assigned (108) or pool (102) vehicles. These vehicles were acquired
and maintained with either Hunters’ and Anglers’ (license revenue) or Program
funds. None of the individually assigned vehicles or pool vehicles maintained
monthly vehicle log sheets (Form ADM-253A). We found that, in general, these
vehicles were not being utilized in accordance with State or Department vehicle
use policy.


                                                                                      4
Individual Assigned Vehicles
Using calendar year (CY) 2010 taxable commute certification data, we calculated
total commuting miles based on residence to official duty station and compared
those miles with total miles reported in the Webmiles system. The Webmiles
system is a Department of Treasury Central Motor Pool system that keeps track of
vehicle mileage. We found that 30 of 34 non-law enforcement Division
employees that certified commuting mileage in 2010 did not meet the minimum
business mileage requirement of 1250 business miles per month. Furthermore, 12
(40 percent) of the 30 employees had commuting mileage that represented more
than 50 percent of the total vehicle mileage (see table below).

                                                                   Total
                                                                 Vehicle  Percentage
Assigned-             Commuting                          Total   Mileage       of
  Type-     Vehicle      Mileage         No. of      Commuting    for CY  Commuting
   CDE        Plate      per trip     Commutes *        Miles**  2010 *** for CY 2010
   INDI       21257         35.8          142           5,084     2,908      175%
   INDI       21105          12           434           5,208     8,098      64%
   INDI       27661         33.4          212           7,081    11,348      62%
   INDI       22934         32.9          224           7,370    14,647      50%
   INDI       27456          33           396           13,068   16,657      78%
   INDI       16124         18.5          287           5,310     8,673      61%
   INDI       21890         42.6          298           12,695   17,930      71%
   INDI       28709         54.6          216           11,794   12,396      95%
   INDI       28306         30.9          410           12,669   16,467      77%
   INDI       22734         53.6          374           20,046   13,038      154%
   INDI       22660         33.3          426           14,186   14,629      97%
   INDI       29424         39.3          378           14,855   19,945      74%
*Represents the number of Commutes reported on the CP AUTO #1 (Taxability Report).
This report is submitted to the State Treasury for tax purposes.
** Auditor Calculation: (Number of commutes x commuting miles per trip).
***Information from the Webmiles System.

Pool Vehicles
A pool vehicle is meant to be shared by several individuals and is formally
assigned to the local pool coordinator on a Vehicle Request and Assignment
Report (TS-103). Unlike individually assigned vehicles, we were unable to
compute commuting miles, as no taxable commute certification data was
available. We found three instances where pool vehicles may have been misused:
   •   Two management-level employees at the Headquarters in Trenton, NJ,
       were using State license-funded law enforcement vehicles primarily for
       commuting purposes for extended periods, but they never obtained the
       required formal requests and transfers of the vehicles.
   •   The third employee, a field supervisor, was using a non-assigned pool
       vehicle for regular trips between the employee’s residence in Pennsylvania
       and the daily worksite, a 60-mile one-way trip. Significant mileage is
       required from his residence to any worksite within his district. This
       vehicle was acquired and maintained with Program grant funds.
The State guidelines are clear that vehicles cannot be assigned under any
circumstance when the primary purpose is for commuting. The Division was

                                                                                    5
unable to support that those vehicles acquired and maintained with Program funds
and license revenues were used for their intended purpose and not primarily for
commuting.
The Department’s State Vehicular Assignment and Use Policy No. 1.16A, section
VI, Responsibilities, states that employees (drivers) are responsible for
completing the vehicle use and assignment form (TS-103) as well as completing a
monthly vehicle usage log (Form ADM-253A) that is maintained by the driver,
and, upon request, made available.
According to State Circular 10-05-ADM, State Vehicular Assignment and Use
Policy, sections II.B and C states:
       “State employees not covered under section II.A may be assigned
       vehicles permanently if required by their formal job duties. Such
       vehicles should be assigned only if they will be used on official
       business for more than an average of 1,250 business miles per
       month. Individual exceptions to this policy may be considered on a
       case-by-case basis when justified by extenuating circumstances.
       “Vehicles cannot be assigned under any circumstances where miles
       do not exceed 1,250 business miles per month or where the primary
       purpose is for commuting when comparing business miles to
       commutation miles.”
Also, State Circular 10-05-ADM, section II.E states: “Vehicle use logs will be
maintained for all pool, temporary, and individual assignments that because of
their job duties are required to be in the field. Vehicle logs should denote the time
and mileage for all stops, including lunch and breaks.” In addition, section III.B
10(d) states, “Use of vehicle is misused if it is used for an unauthorized business,
personal, or commutation use.”
Lastly, State Circular 12-03-OMB requires the completion of Form CP AUTO 1,
identifying each individual that is commuting and the total number of one–way
commutes per year to be a taxable fringe benefit at $1.50 for each one-way
commute.
The Code of Federal Regulations (CFR), 2 CFR § 225, Appendix A, section
C.1.a, provides basic guidelines for allowability of costs. To be allowable, costs
must be necessary and reasonable for proper and efficient performance and
administration of Federal awards. Furthermore, 50 CFR § 80.4 requires that
revenues from license fees paid by hunters and anglers be used only for the
administration of the State fish and wildlife agency. A diversion of license fee
revenues occurs when any portion of the license revenues issued for any purpose
other than the administration of the fish and wildlife agency. For the purpose of
this rule, administration of the State fish and wildlife agency includes only those
functions required to manage the fish and wildlife resources of the State.



                                                                                      6
These problems occurred because the Division did not follow State and
Department vehicle usage procedures. Specifically, the Division did not maintain
required vehicle logs to support miles reported in the State’s Webmiles system,
and Webmiles often included inaccurate data related to commuting miles or
lacked such data altogether. In addition, we found that employees had been
driving a pool or individually assigned vehicle that did not meet the State
minimum business miles requirement or had been used primarily for commuting
purposes. Other individuals using pool vehicles for extended periods were never
properly assigned the vehicle.

The Division misused individually assigned pool vehicles for personal commuting
purposes and was unable to support that vehicles acquired and maintained with
Program funds and license revenues were being used for their intended purpose.

We believe pool vehicles are at particular risk of misuse because their use is not
being documented by vehicle usage logs or taxable commute certification data.
We therefore were unable to determine the extent of misuse for pool vehicles.

For individually assigned vehicles, we found that 30 vehicles did not meet the
minimum business mileage requirements to justify being individually assigned for
CY 2010. Twelve of these 30 vehicles had commuting mileage that represented
more than 50 percent of the total vehicle mileage. For the 8 of 30 vehicles
purchased and maintained with Program grant funds, we questioned the
commuting mileage for $8,038 ($6,028 Federal share). Dollar calculations are
based on the State’s own personal vehicle mileage reimbursement rate of .31
cents per mile for determined unallowable commuting miles of 25,927 (see table
below of affected grants).

                  Federal Program Grant                     Questioned Costs
    Marine Fisheries Investigations and Management                  $917
    (F-15-R-51, and, F-15-R-52)
    New Jersey Wildlife Research and Management                      3,743
    (W-68-R-14, and, W-68-R-15)
    New Jersey Statewide Development Project                          1,368
    (FW-63-D-24)
    Total                                                           $6,028

For the 22 of 30 individually assigned vehicles that were purchased and
maintained with State license revenues, we consider commuting mileage
(151,070 miles x $.31) for $46,832 as a potential diversion.




                                                                                     7
 Recommendations

 We recommend that FWS—

    1. resolves the questioned costs totaling $6,028;

    2. resolves the diversion of license revenues totaling $46,832; and

    3. requires the Division to follow its State and Departmental level vehicle
       assignment and use policy so that there is transparency on how
       vehicles are used on a daily basis and that vehicle assignments to
       personnel are made based only on work-related needs.


Division Response
Division officials did not concur with the finding. The Division is currently
reviewing all mileage reports, taxability forms, and State policies to determine
where all discrepancies appear.

FWS Response
FWS Regional officials concurred with the finding and recommendations and will
work with the Division on a corrective action plan.

OIG Comments
Based on the Division and FWS responses, additional information is needed in the
corrective action plan including—

   •   specific action(s) taken or planned to address the recommendations;
   •   targeted completion dates;
   •   titles of officials responsible for implementing the actions taken or
       planned; and
   •   verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Division.

B. Potential Violation of Assent Legislation

In accordance with the Acts, the Division has assented to the Acts and established
a fund called the “Hunters’ and Anglers’ Fund” (Fund) dedicated to the protection
of State license and permit revenues. In addition to such revenues, the State
Department of Treasury annually deposits a separate, supplemental appropriation
of State general funds. At the end of SFY 2010, the State Treasury reverted a
portion of the supplemental, non-restricted appropriation for $500,000 from the
Fund back to the State’s general fund.

The State legislation assenting to the Acts is not clear as to whether general fund
revenues once deposited into the Fund can be used for purposes other than the

                                                                                      8
best interest of the wildlife resources of the State. The statute on Disposition of
Fees, Title 23:3-11, states that the Fund shall be used exclusively for purposes
that the Wildlife Division deems in the best interest of the wildlife resources of
the State. Furthermore, Title 23:3-12, which establishes the Fund, states that it
shall be a fund that shall be kept separate from all other State monies and shall be
used exclusively for purposes that the Wildlife Division deems in the best interest
of the wildlife resources of the State.

The State comingled general fund appropriations with the Hunters’ and Anglers’
license and permit revenues. Because the State statute on Disposition of Fees
declares that all monies in the Fund shall be used exclusively for purposes that the
Wildlife Division deems in the best interest of the wildlife resources of the State,
it suggests that all monies deposited in the fund must be used for wildlife
resources. As a result, the State may have removed $500,000 of its non-license
and permit general funds from the Fund in violation of the State’s assent
legislation.

 Recommendation

 We recommend that FWS obtains a solicitors opinion to interpret the intent
 of the State statute Title 23:3-12, Disposition of Fees, to determine whether
 the State had a right to remove the balance of a separate, supplemental
 appropriation from the Hunters’ and Anglers’ Fund.


Division Response
Division Officials will wait for FWS solicitor’s opinion on whether the State of
New Jersey had the right to remove monies from the supplemental appropriation
from the Hunter’s and Angler’s Fund.

FWS Response
FWS Regional officials concurred with the finding and recommendation and will
work with the Division on a corrective action plan.

OIG Comments
Based on the Division and FWS responses, additional information is needed in the
corrective action plan including—

   •   specific action(s) taken or planned to address the recommendation;
   •   targeted completion dates;
   •   titles of officials responsible for implementing the actions taken or
       planned; and
   •   verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Division.



                                                                                   9
C. Inadequate Accounting of Program Income

Program income is gross income received by a grantee directly generated by a
grant-supported activity and includes income from services performed and the
sale of commodities. The Division was unable to identify the source and type of
program income in the State’s accounting system. In order to account for program
income, the Division established the Statewide Development Account (SDA) to
include various revenue sources. Once transferred into the SDA, the State’s
accounting system is unable to trace the program income by funding source and
type of revenue at the transaction level.

The Code of Federal Regulations (43 CFR § 12.60(a)(2)) requires that the State’s
financial management system must permit the tracing of funds to a level adequate
to establish compliance with grant provisions.

The SDA was not programmed to track program income by funding source and
type of revenue. Without the integrity of the accounting system to track revenue
by funding source at the transaction level, there is a risk that revenues that qualify
as program income may not be reported.

 Recommendation

 We recommend that FWS works with the Division to ensure that program
 income in the accounting system can be identified by funding source and type
 of revenue.


Division Response
Division officials consider this finding resolved. Any program income received
will no longer be deposited into the Statewide Development Account.

FWS Response
FWS Regional officials concurred with the finding and recommendation and will
work with the Division on a corrective action plan.

OIG Comments
Based on the Division and FWS responses, additional information is needed in the
corrective action plan including—

   •   specific action(s) taken or planned to address the recommendation;
   •   targeted completion dates;
   •   titles of officials responsible for implementing the actions taken or
       planned; and


                                                                                    10
   •   verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Division.

D. Inadequate License Certification Documentation

The Division was unable to provide documentation for license years (LYs) 2008
and 2009 to ensure that all duplicate license holders were eliminated and not
included in the annual certifications. While the Division has an automated point-
of-sale license system, the system was never programmed with the appropriate
coding to eliminate potential duplicate license holders for license certification
purposes. Although some duplicate license holders were manually removed
through a query process from the license count reported in LYs 2008 and 2009,
the Division did not maintain sufficient documentation to confirm that all license
types with potential for duplicates were manually tested.

The Code of Federal Regulations (50 CFR § 80.10(c)) regarding the certified
number of license holders, states: “The director of the State fish and wildlife
agency is responsible for eliminating multiple counting of single individuals in
the information that he or she certifies and may use statistical sampling or other
techniques approved by the Director for this purpose.”

While the State of New Jersey received the minimum annual apportionment, the
Division could not ensure that the licenses sold and reported in their annual
license certifications are accurate and based only on the sale of eligible hunters’
and anglers’ licenses. A formal policy and procedure was not in place to ensure
that queries of the license system are maintained to ensure that all duplicate
license holders are eliminated.

 Recommendation

 We recommend that FWS works with the Division to establish and implement
 formal policies and procedures to ensure that queries of the Oracle system
 are maintained to provide assurance that all duplicate license holders are
 eliminated.


Division Response
Division officials consider the finding resolved. The Division has written
procedures for preparing the annual license certification for FWS.

FWS Response
FWS Regional officials concurred with the finding and recommendation and will
work with the Division on a corrective action plan.




                                                                                     11
OIG Comments
Based on the Division and FWS responses, additional information is needed in the
corrective action plan including—

   •   specific action(s) taken or planned to address the recommendation;
   •   targeted completion dates;
   •   titles of officials responsible for implementing the actions taken or
       planned; and
   •   verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Division.

E. Unreconciled Real Property Records

To help maintain control over the use of land acquired with Program funds, the
Division must ensure its database of real property is accurate and reconciles with
land records maintained by FWS. While the Division has been working with the
FWS region to reconcile its land records, the reconciliation is not yet complete.
We found that the Division and FWS real property records differ by 762 acres and
$1.5 million dollars.

The Code of Federal Regulations (50 CFR § 80.18(c)) requires the State to
maintain accountability and control of all assets to ensure they serve the purpose
for which they were acquired throughout their useful life, and 50 CFR § 80.14
also requires that if such property passes from management control of the State
fish and game agency, the control must be restored to the State fish and game
agency.

In addition, the FWS Director reiterated land management requirements to
Program participants in a March 29, 2007 letter. The letter requested that each
State—

   •   maintain a real property management system that includes a
       comprehensive inventory of lands; and
   •   ensure that its inventory is accurate and complete.

The Division’s land records are not adequate to ensure that lands acquired with
grant funds are used solely for the intended purpose for which they were acquired
because the Division did not complete its reconciliation process with FWS.

We reported a similar condition in our prior audit report (No. R-GR-FWS-0010-
2007). We are therefore repeating the applicable recommendation from that report
(Recommendation B.1), which will be tracked under the resolution process for the
prior audit. It should be noted that since our prior audit finding, the Division has
made progress in reconciling the real property records with FWS. In addition, the
importance of reconciliation of tract land values was not previously brought to the
Division’s attention in the prior audit finding.

                                                                                  12
 Repeat Recommendation

 We recommend that FWS works with the Division to ensure it reconciles its
 land records with FWS records.


Division Response
Division officials continue to work with FWS to reconcile their land records.

FWS Response
FWS Regional officials concurred with the finding and repeat recommendation.
FWS will work with the Division in developing and implementing a corrective
action plan that will resolve the finding and repeat recommendation.

OIG Comments
The implementation of this repeat recommendation will be tracked under the prior
audit report. Accordingly, FWS should send documentation regarding the
implementation of this repeat recommendation to the U.S. Department of the
Interior, Office of the Assistant Secretary for Policy, Management, and Budget.

F. Inadequate Equipment Management

Federal regulations require each State to have adequate controls in place to ensure
that it maintains accountability for its equipment. To test the Division controls, we
reviewed the State’s inventory management system and selected 62 items of
equipment valued at $627,719 to verify their existence. We successfully located
all of the items. We also selected 34 items while in the field to determine if they
were on the equipment listing. We found that eight of these equipment items were
not on the Department’s inventory management system. Equipment items not on
the inventory system included a boat, three tractors, and two loaders.

The Code of Federal Regulations (50 CFR § 80.18(2)(c)) states that the Division
is responsible for the accountability and control of all assets to ensure that they
serve the purpose for which they were acquired throughout their useful life.

Further, New Jersey Department of the Treasury Circular (Circular) 11-19-OMB,
states: “All State agencies are required to manage the inventory of property
owned by or the responsibility of an agency. For the purpose of this Circular
letter, those assets, both tangible and intangible, with an original cost of $1,000 or
more and an expected useful life of 3 years or more must be maintained on an
asset inventory record.”

The incomplete listing of equipment resulted from not following the Circular
11-19-OMB inventory control procedures. As a result, equipment purchased with
Program funds and license revenues are at risk of loss. Additionally, the Division


                                                                                   13
and FWS have no assurance that equipment is used for its originally intended
purposes.

 Recommendation

 We recommend that FWS ensures that the Division follows Circular
 11-19-OMB.


Division Response
Division officials stated that they will be updating all inventory lists in the next
couple of months as part of the Department of Environmental Protection’s annual
inventory update.

FWS Response
FWS Regional officials concurred with the finding and recommendation and will
work with the Division on a corrective action plan.

OIG Comments
Based on the Division and FWS responses, additional information is needed in the
corrective action plan including—

   •   specific action(s) taken or planned to address the recommendation;
   •   targeted completion dates;
   •   titles of officials responsible for implementing the actions taken or
       planned; and
   •   verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Division.




                                                                                  14
Appendix 1
                     State of New Jersey
           Department of Environmental Protection
                Division of Fish and Wildlife
           Financial Summary of Review Coverage
            July 01, 2009, Through June 30, 2011

       Grant       Grant         Claimed       Questioned
     Number      Amount           Costs         Ineligible
  F-15-R-51       $1,138,592     $1,292,293         $ 917
  F-15-R-52        2,452,125        849,004
  F-48-R-23          209,545        109,592
  F-48-R-24          160,000        137,155
  F-48-R-25          248,183         48,645
  F-50-D-24          933,334      1,031,042
  F-50-D-25        3,755,155        222,229
  F-52-E-23          301,133        256,766
  F-52-E-24          742,973        137,889
  F-57-D-2           927,455        782,455
  F-69-D-17          514,277        538,427
  F-69-D-18          470,809        506,744
  F-69-D-19          494,777         32,843
  F-114-D-1          788,000        417,957
  FW-49-C-38         204,000        275,357
  FW-49-C-39         242,260        238,206
  FW-56-T-35         105,895         96,400
  FW-56-T-36         227,802         73,153
  FW-63-D-24       1,817,934      2,371,674           1,368
  FW-63-D-25       1,835,934      1,750,933
  FW-63-D-26       2,571,977      1,118,240
  FW-69-R-13          66,540        112,012
  FW-69-R-14         133,096         67,606
  W-50-S-38        1,026,160        729,723
  W-50-S-39        3,088,102        320,000
  W-68-R-14        1,901,264      1,443,042           3,743
  W-68-R-15        4,170,086      1,306,878
  W-69-C-1            66,667
  W-70-R-1           186,076         31,453
  Total         $30,780,151    $16,297,718          $ 6,028




                                                              15
Appendix 2
                     State of New Jersey
            Department of Environmental Protection
                 Division of Fish and Wildlife
                         Sites Visited

                          Headquarters
                            Trenton

                        Regional Offices
                    Central (Assunpink WMA)

                  Wildlife Management Areas
                           Black River
                            Millville
                             Pequest
                          Whittingham

                           Field Office
                           Black River
                             Millville
                             Pequest

                            Fish Lab
                            Lebanon

                          Fish Hatchery
   Pequest Trout Hatchery and Natural Resource Education Center

                          Boat Access
                   Hanseys Creek Boat Access
                  Sands Point Park Boat Launch




                                                                  16
Appendix 3
                            State of New Jersey
                 Department of Environmental Protection
                        Division of Fish and Wildlife
              Status of Audit Findings and Recommendations

Recommendations                Status                 Action Required
A.1, A.2, A.3, B, C,   FWS management            Based on the FWS response,
D, and F               concurred with the        additional information is
                       recommendations, but      needed in the corrective
                       additional information    action plan, as listed in the
                       is needed.                Findings and
                                                 Recommendations section
                                                 under OIG Comments. We
                                                 will refer the
                                                 recommendations not
                                                 resolved and/or implemented
                                                 at the end of 90 days (after
                                                 September 20, 2012) to the
                                                 Assistant Secretary for
                                                 Policy, Management and
                                                 Budget for resolution and/or
                                                 tracking of implementation.

Repeat                 Repeat                    Provide documentation
Recommendation E       recommendation from       regarding the implementation
                       our prior report (R-GR-   of this repeat
                       FWS-0010-2007,            recommendation to PMB.
                       recommendation B.1).
                       PMB considers this
                       recommendation
                       resolved but not
                       implemented.




                                                                             17
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
